CERTIFICATE
OF
COMPLIANCE
Brian Burke, petitioner
v.
New York City Transit Authority, Kristen Nolan, esq.,
Leonard Akselrod, NYP Holdings, DBA New York Post,
Kathianne Boniello,
Opponent(s) Respondent(s)
As required by Supreme Court Rule 33.1(h), I certify
that the Petition for a Writ of Certiorari contains 3225
words, excluding the parts that are exempted under
Supreme Court Rule 33.1(d).
I declare under penalty of perjury in this declaration in
compliance with 28 U. S. C. ยง 174
that the foregoing is true and correct.
Executed on Wednesday, October 23, 2019
Brian Burke, pro se
145 East 23rd Street #4R
New York, NY 10010
briantburke@gmail.com
646-434-8513

